           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    THE EFFECTIVENESS OF THE
        SOCIAL SECURITY
   ADMINISTRATION’S CONTROLS
          OVER TITLE II
     UNNEGOTIATED CHECKS

    September 2005   A-02-05-15079




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                             SOCIAL SECURITY
MEMORANDUM

Date:   September 19, 2005                                                                Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Effectiveness of the Social Security Administration’s Controls over Title II
        Unnegotiated Checks (A-02-05-15079)

        OBJECTIVE

        Our objective was to evaluate the effectiveness of the Social Security Administration’s
        (SSA) policies and procedures for addressing Title II unnegotiated checks

        BACKGROUND

        Public Law 100-86 states that the United States Department of the Treasury (Treasury)
        is not required to pay a Treasury check unless it is negotiated to a financial institution
        within 12 months after the date the check is issued.1 The law applies to Treasury
        checks paid on behalf of SSA to its beneficiaries.2 Social Security benefit payments
        made via a Treasury check that have not been presented for payment within 12 months
        from the date of issuance are voided and Treasury notifies SSA that the check has not
        been received or presented for payment. Once voided, Public Law 100-86 requires that
        the amount of the check be credited back to the fund account that was initially charged
        for the payment.

        Public Law 100-86 does not define steps that an agency must take once Treasury
        notifies it that it has voided a check. SSA, however, developed its own policy to
        address this situation. Once SSA is notified by Treasury that a check was not
        negotiated within 12 months of issuance, SSA posts a limited payability alert to the
        corresponding beneficiary’s (or representative payee’s) payment history in the 15th
        month past the check’s issue date and notifies the beneficiary through the mail that the
        check has not been presented for payment. SSA, in its mail notification, asks the
        beneficiary to confirm whether the check was received and requests that the check be
        returned to SSA if the beneficiary still has it. SSA will re-issue a check if the beneficiary
        advises SSA that it was not received or there was some other problem causing the


        1
            Act of Aug. 10, 1987, Pub. L. No. 100-86, 101 Stat. 658 (codified as amended at 31 U.S.C. § 3334).
        2
            This law only applies to checks. It does not affect direct deposit electronic funds transfers.
Page 2 – The Commissioner


check not to be cashed (for example, it was destroyed, lost or stolen.) If the beneficiary
does not contact SSA, no additional follow-up actions are taken.

SSA’s Office of Financial Policy and Operations previously conducted special studies to
determine why some beneficiaries do not negotiate their checks. In February 2003, the
Agency began the New York Unnegotiated Check Study (New York Study). It
conducted a computer analysis to identify Title II beneficiaries in the New York region
who had not cashed 10 or more checks between January 1, 1997 and
December 31, 2001. This analysis identified 368 such beneficiaries. Staff in SSA’s
New York region, with the support of the Office of the Inspector General’s (OIG) Office
of Investigations (OI), contacted the beneficiaries to determine why they had not
negotiated multiple checks.

The New York Study concluded that the beneficiaries did not cash their checks because
they were unaware of the limited payability of their benefit checks; refused to cash their
checks; did not receive their checks due to address changes; were physically and/or
mentally incapacitated and needed a representative payee to properly handle benefits;
or had died and SSA was not notified of the death. Additionally, fraud was suspected in
four cases and these were referred for further review and action. See Appendix D for
the specific results of the New York Study.

The New York Study results led SSA to conclude that other regions may have had
similar issues with unnegotiated checks. In April 2003, SSA’s Division of Systems
Security and Program Integrity performed additional data analyses for the remaining
regions for beneficiaries with 10 or more unnegotiated checks since January 1, 1999
and 871 beneficiaries were identified. Staff in the other regions found that the reasons
the beneficiaries did not cash their checks were similar to those identified through the
New York Study. See Appendix E for the specific results of the National Unnegotiated
Check System Match (National System Match).

RESULTS OF REVIEW

SSA was in adherence with Public Law 100-86, and its policies related to unnegotiated
checks. Further, SSA studies of unnegotiated checks indicate there are opportunities to
improve the level of service provided to beneficiaries who have not negotiated multiple
checks. Previous SSA efforts found that some of the causes related to beneficiaries not
negotiating their checks could be addressed through personal contact with the
beneficiary. For example, the National System Match found that 13 percent of those
contacted were in need of a representative payee. Additionally, initiating personal
contact with beneficiaries who had not negotiated multiple checks could identify
ineligible beneficiaries. In the National Systems Match, 19 percent of the beneficiaries
reviewed had their benefits suspended and 8 percent were referred for a disability
investigation or to the OIG for further investigation.
Page 3 – The Commissioner


UNNEGOTIATED CHECKS

SSA’s policies require the Agency to send a notice to beneficiaries who do not negotiate
their checks. The policies do not require follow-up inquiries or contact with beneficiaries
who have not negotiated one or more checks, and who have not responded to SSA’s
mailing inquiring about the unnegotiated checks. The responsibility rests with the
beneficiary to respond to the one notice SSA sends once the Agency is notified by
Treasury that a check has not been cashed 12 months past the issuance date.

The results of the New York Study and National System Match found that some of the
beneficiaries who did not negotiate their checks were in need of representative payees.
For example, the New York Study found that over 17 percent of the 368 beneficiaries it
attempted to contact were in need of a representative payee. Similarly, the National
System Match found that 13 percent of the 1,239 individuals it attempted to contact
were in need of a representative payee.3 A beneficiary who needs a representative
payee may not be in a position to respond to the Agency’s notice inquiring about the
unnegotiated check.

Unnegotiated checks may also be an indicator of other types of problems that SSA has
not identified. For example, 19 percent of the beneficiaries reviewed in the National
System Match had their benefits suspended. In addition, 8 percent of the beneficiaries
in the National System Match were found to be deceased and another 8 percent were
referred for a disability investigation or to the OIG for further investigation.

UPDATED ANALYSIS OF UNNEGOTIATED CHECKS

Our review identified 4,317 beneficiaries who did not negotiate 10 or more checks from
October 1998 through September 2003. The 4,317 beneficiaries had not negotiated
86,673 checks worth approximately $50.8 million. Sixty-five of these beneficiaries had
60 or more uncashed checks during the 5-year period—totaling $2,083,162.

We examined 130 of the 4317 cases with the most unnegotiated checks that were also
part of SSA’s New York Study and National System Match to determine their status.
For the 130 cases, we identified 6,682 unnegotiated checks worth $4,687,768 from
October 1998 to September 2003. It appears that SSA’s interventions helped to rectify
112 of the cases since these beneficiaries did not have unnegotiated checks after the
time SSA staff initiated contact with them. We also completed a wider examination of
18 of the 130 cases (14 percent) where we found that corrective action had not been
taken after SSA initiated contact with the beneficiaries. We determined how many
unnegotiated checks occurred for these 18 cases from October 1988 to
December 2003. In all, the 18 beneficiaries did not negotiate 1,255 checks worth a total
of $734,248 in that time frame. All 18 beneficiaries continued to have



3
 The results for the 1,239 cases within the National System Match include the 368 cases completed
during the New York Study.
Page 4 – The Commissioner


unnegotiated checks through December 31, 2003. The following are examples of the
18 cases.

   •   A 92 year-old beneficiary’s record indicated $118,163.80 in unnegotiated checks
       dating as far back as July 1989, with a total of 178 unnegotiated payments. At
       the close of our review, we found that the uncashed checks were continuing into
       the 16th consecutive year.

   • A 77-year-old beneficiary’s record indicated $59,016 in unnegotiated checks
       dating as far back as October 1994, with a total of 113 unnegotiated checks. At
       the close of our review, we found that the uncashed checks were continuing into
       the 10th consecutive year.

CONCLUSION AND RECOMMENDATIONS
SSA could take further steps to better serve beneficiaries who continually fail to
negotiate their benefit checks. Multiple unnegotiated checks can signal a problem, such
as a need for a representative payee. SSA’s limited contact via the mail for
beneficiaries with unnegotiated checks may not identify beneficiaries with a higher need
for service. To ensure that unnegotiated checks are being effectively resolved for
beneficiaries, we recommend that SSA:

1. Review and take appropriate action to address the 18 cases we identified where
   unnegotiated checks continue.

2. Develop policy requiring staff outreach to beneficiaries who repeatedly do not
   negotiate their checks or respond to SSA’s related mailings to determine their
   service needs.

AGENCY COMMENTS
The Agency agreed in part with our first recommendation and disagreed with our
second recommendation. In regards to the first recommendation, the Agency stated
that it would re-review the 18 cases we identified, with the caveat that it will not take
further action on cases where regions have already made contact and the beneficiary
refuses to negotiate his or her check. In response to our second recommendation, the
Agency stated that a formal policy is not necessary. The Agency noted that it has
already taken action to reach out to beneficiaries that do not negotiate their checks
through its special studies.

Additionally, it noted that outreach efforts may pose a security risk, since those not
negotiating checks may be doing so because of philosophical opposition to the
Government and, if contacted, could pose a danger to SSA employees. The full text of
SSA’s comments may be found in Appendix F.
Page 5 – The Commissioner


OIG RESPONSE
We appreciate SSA’s previous efforts to identify beneficiaries that do not negotiate their
checks. Additionally, we appreciate SSA’s efforts to re-review the 18 cases we
highlighted in our report. Based on our review of the beneficiaries records within SSA’s
systems and the information the Agency provided to us on these 18 cases, we did not
find any evidence that corrective action was taken. We understand that there may be
some beneficiaries that are capable of managing their finances, but still choose not to
negotiate their checks.

With respect to our second recommendation, we believe that a formal policy is
necessary to determine if beneficiaries who do not negotiate their checks are in need of
additional service. SSA’s special studies have shown that multiple unnegotiated checks
can be an indicator of the need for a representative payee or that their checks should be
reissued. In two examples from the New York study that are described in Appendix D,
SSA staff found beneficiaries “in rather tragic circumstances,” where the need for
representative payees was great. The additional outreach conducted, as part of the
special studies, also led to fraud referrals and benefit suspension due to the death or
inability to locate beneficiaries. We share the agencies concerns for the safety of its
employees. The initial outreach effort could be completed by telephone. We would
support a staff member’s determination after an initial contact that further contact would
not be prudent due to security concerns.




                                                S
                                                Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Flowchart of the Title II Unnegotiated Payment Process

APPENDIX D – Results of the New York Unnegotiated Check Study

APPENDIX E – Results of the National Unnegotiated Check System Match

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms
GLPSC      Great Lakes Program Service Center
LP         Limited Payability
MBR        Master Beneficiary Record
MDW        Modernized Development Worksheet
OI         Office of Investigations
OIG        Office of the Inspector General
PC         Payment Center
PHUS       Payment History Update System
POMS       Program Operations Manual System
PSC        Program Service Center
REACT      Returned Check Action Program
RPS        Representative Payee System
SM         Systems and Methods
SSA        Social Security Administration
SSN        Social Security Number
Treasury   United States Department of the Treasury
                                                                      Appendix B

Scope and Methodology
Our objective was to evaluate the effectiveness of the Social Security Administration’s
(SSA) policies and procedures for addressing Title II unnegotiated checks. To meet this
objective, we reviewed Title II unnegotiated checks recorded in Fiscal Years 1999
through 2003. We obtained a data extract of Title II unnegotiated checks for
4,317 beneficiaries with 10 or more uncashed checks within those fiscal years. We
performed a reliability review to confirm the validity of the data within the extract. We
compared critical data fields in the data extract to the corresponding source data in the
Payment History Update System.

We also completed the following steps to meet our objective.

•   Reviewed SSA policies and procedures for addressing Title II unnegotiated checks,
    including the following Program Operations Manual System citations:

       o SM 00624.400 How the Returned Check Action (REACT) Program Processes
         Limited Payability Files;

       o SM 00624.405 How to Process PC Limited Payability Exceptions;

       o SM 00624.410 FO Handling of the Limited Payability Notice;

       o SM 00624.412 PC Limited Payability Processing;

       o SM 00624.415 PC Processing of a Limited Payability Credit Treasury
         Reversal;

       o SM 00624.420 FO/PC Processing of a Returned Check More Than One Year
         Old; and

       o SM 00545.300 Unnegotiated Check Events.

•   We interviewed SSA staff in the Office of Financial Policy and Operations, Payment
    and Recovery Policy Staff and the New York Regional Office Center for Programs
    Support to obtain an understanding of the workflow for processing unnegotiated
    checks. Based on those interviews, we prepared a flowchart of the Title II
    unnegotiated payment process.




                                           B-1
•   We interviewed the New York Field Division of the Office of the Inspector General,
    Office of Investigations and regional SSA staff to obtain an understanding of the
    methodology used and results obtained by the New York Unnegotiated Check Study
    (New York Study).

•   We reviewed SSA’s National Unnegotiated Check System Match (National System
    Match) and the results of follow-up investigations by SSA Field Offices to ascertain
    the reasons checks were not being cashed and whether corrective actions were
    being taken.

•   We reviewed a selection of 130 cases identified in SSA’s National System Match
    and our data extract. For our review, we identified cases that appeared in the two
    data sets: the 1,239 cases in SSA’s National System Match and the 4,317 cases in
    the OIG data extract of unnegotiated checks. We selected the top 130 cases by the
    largest number of unnegotiated checks. This number represented about 10 percent
    of the total cases in SSA’s National System Match.

•   We reviewed 18 of the 130 cases described above for which we were able to
    determine that the beneficiaries continued to have unnegotiated checks after SSA’s
    New York Study and National System Match. For these 18 cases, we identified the
    number of unnegotiated checks from October 1988 through December 2003.

We were not able to perform verification tests of the results of SSA’s follow-up
investigations and corrective actions taken, because we did not receive complete data
(case by case) for the National System Match. We requested the specific Social
Security numbers (SSN) and the corresponding outcomes of the Field Office follow-up
investigation and planned to verify the results to source data. We only received SSN
level data for 288 of the 1,239 cases. The Division of Systems Security and Program
Integrity advised us that the regions were given flexibility in how they collected data.
Consequently, the data provided varied in the level of detail. As a result of these
limitations, we developed an alternative test methodology, described above.

We performed our audit in New York and at SSA Headquarters in Baltimore, Maryland.
We conducted our audit fieldwork between January and April 2005. The audited entities
were the Office of Financial Policy and Operations, Payment and Recovery Policy Staff,
the New York Regional Office Center for Programs Support, and the Division of
Systems Security and Program Integrity. Our audit was performed in accordance with
generally accepted government auditing standards.




                                           B-2
                                                                                                                                 Appendix C
Flowchart of the Title II Unnegotiated Checks Process


   Title II checks are issued by the                                                                Files containing Limited Payability (LP) Credits
   United States Department of the             Treasury's Check Payment and                         for each of Treasury's Regional Financial
   Treasury (Treasury). The checks are         Reconciliation System identifies and cancels         Centers are created by the Treasury's Central
   voided 12 months from date of               checks that have "aged" 12 months.                   Office in Hyattsville, Maryland. During the
   issuance if the check has not been                                                               fourteenth month after the check issue date,
   presented for payment.                                                                           the check is credited back to the Social
                                                                                                    Security Administration (SSA).




   In the fifteenth month, Treasury notifies
   SSA that the check has not been                                                            REACT creates a Payment History Update System
   received or presented for payment.              SSA's Returned Check Action                (PHUS) EVENT 169 for unnegotiated payment and a
   Actual credits are forwarded to the SSA         Program (REACT) accumulates                LP credit is posted to the beneficiary's (or
   Program Service Center (PSC) within             and processes the LP files                 representative payee's) record in the PHUS. This
   the jurisdiction of the payment. The            received from Treasury.                    posting should occur in the fifteenth month from the
   credits are forwarded via the                                                              check's date of issuance.
   Government On-Line Accounting Link
   System/On-Line Payment and Collection
   System.




   REACT transmits the LP notice file to the
   Great Lakes Program Service Center                                                         If the beneficiary advises SSA that he or she did not
                                                The LP notice (1) states that records
   (GLPSC), which sorts the records by                                                        receive the check or that there was some other
                                                show that the check has not been
   payment center (PC) of jurisdiction and                                                    problem causing the check not to be cashed (e.g.,
                                                presented for payment; (2) asks the
   transmits to each applicable PC. The                                                       destroyed, lost or stolen), SSA will have the payment
                                                beneficiary to confirm whether he or she
   PCs use local software created by                                                          re-issued unless the beneficiary contacts SSA, the
                                                received the check and, if so, cashed it;
   GLPSC to print and mail the LP notices                                                     Agency does not attempt to contact the beneficiary
                                                (3) asks if the beneficiary still has the
   directly to the beneficiary.                                                               again.
                                                check to return it to SSA.
                                                                       Appendix D

Results of the New York Unnegotiated Check Study
SSA provided us the results, as shown below, for the New York Unnegotiated Check
Study (New York Study). The New York Study began as a joint effort between the New
York Regional Office Center for Programs Support and the Office of the Inspector
General, Office of Investigations, New York Field Office. The objective was to
determine why checks were not being cashed. Each case identified was examined to
determine if the issue was with check delivery, with the physical or mental status of the
claimant, or if the problem lay elsewhere. The scope of the study was from
January 1, 1997 to December 31, 2001. As indicated below, the New York Study
concluded that the following situations occurred with beneficiaries:

          Category                      Volume          Percentage of Total

          Claimant Deceased                38                   10.3
          Representative Payee
          Needed                           64                   17.4
          Change of Address                18                    4.9
          Other                           166                   45.1
          Unable to Locate                 70                   19.2
          Fraud                             4                    1.1
          Still Developing                  8                    2.2
          Total                           368              100 (rounded)

Explanations of “Other” reasons included claimants who:

          •   were unaware of the timeframe for cashing checks,
          •   did not need the funds,
          •   were entitled to disability benefits but working and not currently due the
              money,
          •   did not want a spouse/relative to know about the funds,
          •   were ill when checks were issued,
          •   were on vacation or abroad,
          •   were prevented by fire or other physical disasters from cashing their
              checks,
          •   put checks aside to cash at a later date and either forgot them or
              “hoarded” them for a rainy day, and
          •   misplaced where the checks were being kept.
The New York Study noted that it found some beneficiaries “in rather tragic
circumstances.” Two such cases involved a husband and wife in Rochester and a
claimant in Puerto Rico:




                                           D-1
      •   In Rochester, due to the intervention of the Assistant District Manager, social
          services were called in a timely manner to help save the lives of two elderly
          homebound individuals (a husband and wife) in need of medical resources
          and living assistance.

      •   In Puerto Rico, a mentally ill claimant was living in squalid conditions and
          needed social services to assist him.

Other individuals were also identified who needed basic living services and assistance.




                                           D-2
                                                                                      Appendix E

     Results of the National Unnegotiated Check System
     Match
     SSA provided us the results, as shown below, for the National Unnegotiated Check
     System Match (National System Match). The data match was run on April 24, 2003 to
     identify beneficiaries who had not cashed 10 or more checks since January 1, 1999, for
     all of SSA’s regions, except Region II, which was addressed in the New York
     Unnegotiated Check Study (New York Study). The National System Match excluded
     certain types of cases from further development and referral to Field Offices for follow-
     up investigations. Specifically, cases of beneficiaries with representative payees
     appointed or indications on the Payment History Update System that replacement
     checks had been re-issued were both excluded. The National System Match identified
     871 cases. When added to the New York Study cases, SSA reviewed a total of
     1,239 cases. The total number of cases detailed in the table below exceeds the actual
     number of cases referred to, and processed by, the regions (1,267 versus 1,239)
     because the results of some cases were classified in more than one category. For
     example, a case recorded in the “Suspension” column was also recorded in the “Office
     of the Inspector General (OIG) Referral” and the “Representative Payee Needed”
     columns. Additionally, we only received Social Security number level data for
     288 of the 1,239 cases. As a result of this limitation, we were not able to confirm the
     results displayed in the table for most of the cases. The results of the New York Study
     are also included in the table below.
Region          OIG         Death   Suspension   Representative   Checks     Pending or   Disability      Totals
                Referrals                        Payee Needed     Reissued   No Change    Investigation
Boston              4         2        13              7             43          18             4          91
New York            4        38        70              64           184          8              0          368
Philadelphia       26         3        36              8             24          28             0          125
Atlanta             6         6        10              15            89          0              0          126
Chicago             4        13        31              26            50          42             8          174
Dallas             11        17        16              10            39          0              5           98
Kansas City         1         1         2              2             19          0              2           27
Denver              0         1         4              1             19          0              2           27
San
Francisco          10        16        46              26            78          0             10          186
Seattle             0         0         5              3             14          2              1           25
Office of
International
Operations          0         1         2              3             11          3              0           20

Total              66        98        235            165           570         101            32         1,267
                  Appendix F

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM


Date:      September 1, 2005                                                    Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "The Effectiveness of the Social
           Security Administration's Controls Over Title II Unnegotiated Checks" (A-02-05-15079)--
           INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
           recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                        F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "THE EFFECTIVENESS OF THE SOCIAL SECURITY
ADMINISTRATION'S CONTROLS OVER TITLE II UNNEGOTIATED CHECKS" (A-
02-05-15079)


Thank you for the opportunity to review and comment on the draft report. We are pleased that
this review found that we are in compliance with Public Law (P.L.) 100-86, and the policies
related to unnegotiated checks. As demonstrated by our own internal efforts to conduct special
studies, the 2002 Medicare Non-Usage Project and the New York and National Unnegotiated
Check Match, we take very seriously our role to ensure that checks are being properly paid. In
addition, on July 20, 2005, we issued Transmittal Number 18, which revises Program and
Operations Manual System (POMS) GN 02401.901-930 and provides instructions on the
processing of limited payability checks that are more than 12 months old and on which an
unresolved action still exists.

The updated analysis section of this report is incorrect when it states that “we found that
corrective action had not been taken after SSA initiated contact with the beneficiaries.” To the
contrary, as a result of the National Unnegotiated Check Match, each region was given a listing
of their cases, as well as processing reminders and instructions. The initial contact of
beneficiaries took place by mail and, where needed, additional in-person contacts were made.
Based on the results of those contacts, all necessary development was undertaken to terminate
benefits, if appropriate, appoint a representative payee, reissue the check(s) and/or refer the case
to OIG’s Office of Investigations. While this review may have identified a population of
beneficiaries who continued to receive and have unnegotiated checks, OIG did not perform the
analysis required to conclude that corrective action had not been taken. We expect that our
review of the 18 cases, as called for in recommendation number one below, will reveal that no
further action could be taken, as we cannot mandate that an individual use direct deposit or
negotiate their checks.

Our responses to the specific recommendations are provided below.

Recommendation 1

SSA should review and take appropriate action to address the 18 cases we identified where
unnegotiated checks continue.

Response

We agree in part. As we stated above, we believe that all necessary and appropriate action was
taken to address the 18 cases. However, we agree to re-review with the caveat that we will not
take further action on cases where the regions have already made contact and the beneficiary
refuses to negotiate his/her check(s).




                                                F-2
Recommendation 2

SSA should develop policy requiring staff outreach to beneficiaries who repeatedly do not
negotiate their checks or respond to SSA’s related mailings to determine their service needs.

Response

We disagree. While we understand the “outreach” intent of the recommendation, we do not
believe that a formal policy is necessary. We have taken action to reach out to these
beneficiaries through our special studies and matches and, in conjunction with our work in the
National Match, we have distributed processing reminders and instructions to all of the regions.
Any further development or implementation of a formal policy would need to be evaluated in
terms of the resource commitment this type of outreach may require. Additionally, we would not
want to duplicate current local practices of referrals from adult protective services, police and
other social service agencies. Finally, this type of outreach could also present some security
concerns, as we believe some individuals who are not negotiating checks are doing so because of
philosophical opposition to the Government and, if contacted, could pose a danger to our
employees.

We have proposed a systems enhancement proposal, which would notify us directly, in
coordination with the beneficiary, that a check has been unnegotiated. However, due to other
higher priority resources, this enhancement is currently unscheduled.




                                               F-3
                                                                     Appendix G


OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, New York Office of Audit, (212) 264-5295

   Vicki Abril, Audit Manager, New York Office of Audit, (212) 264-0504

Acknowledgments

In addition to those named above:

   Jeffrey Shapiro, Program Analyst-in-Charge

   Christine Chen, Auditor

   Cheryl Robinson, Writer/Editor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification
Number A-02-05-15079.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
